                   Report on Application of Agreed-Upon
                  Procedures - Quick Closeout for Contract
                        Number TIRNO-95-D-00065,
                        Delivery Order Number 0015

                                February 2005

                     Reference Number: 2005-1C-032




  This report has cleared the Treasury Inspector General for Tax Administration
disclosure review process and information determined to be restricted from public
                 release has been redacted from this document.
                                    DEPARTMENT OF THE TREASURY
                                        WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                         February 17, 2005


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE




       FROM:                 Daniel R. Devlin
                             Assistant Inspector General for Audit (Headquarters Operations
                             and Exempt Organizations Programs)

       SUBJECT:              Report on Application of Agreed-Upon Procedures - Quick
                             Closeout for Contract Number TIRNO-95-D-00065 Delivery
                             Order Number 0015 (Audit #20051C0205)


       In response to your request, the Defense Contract Audit Agency (DCAA) applied
       agreed-upon procedures to evaluate direct costs and associated indirect costs claimed
       by the contractor in final voucher number 53 issued under contract number
       TIRNO-95-D-00065, task order number 15. The purpose of the engagement was to
       assist in closing out the contract delivery order using administrative quick closeout
       procedures under the Federal Acquisition Regulation, Part 42. This report pertains only
       to the performance of agreed-upon procedures. The DCAA did not perform an
       examination and, therefore, does not express an opinion.

       The claimed direct costs for Contractor’s Fiscal Years (CFY) 1998 through 2005 have
       been verified to accounting records and claimed indirect costs are based on application
       of final negotiated indirect rates to the recorded base amounts. The DCAA also
       indicated that claimed indirect costs of $1,008 for CFY 2003 are subject to your
       determination. According to the DCAA, the quick closeout rates used by the contractor
       have been lower than the final negotiated indirect rates and no audit exceptions have
       been taken for direct costs. The DCAA does not expect that the CFY 2005 audit results
       will find any significant exceptions to the claimed costs.
                                           2




The information in this report should not be used for purposes other than those intended
without prior consultation with the Treasury Inspector General for Tax Administration
regarding their applicability.

If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director at (202) 927-7077.

Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
